              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR



                                                                                  NOV 09 2010
Memorandum

To:            Secretary Salazar

From:          Mary L. Kendall
               Acting Inspector General

Subject:       Report of Investigation - Federal Moratorium on Deepwater Drilling
               Case No . PI-PI-10-0562-1

       The Office ofInspector General (OIG) completed its investigation into the allegation that
senior U.S. Department of the Interior (DOl) officials, in an effort to help justify their decision to
impose a 6-month moratorium on deepwater drilling in the Gulf of Mexico, misrepresented that
the moratorium was reviewed and supported by a group of scientists and industry experts.

        The scientists and industry experts who peer reviewed the safety recommendations
contained in the 30-Day Report to the President, relative to deepwater drilling operations in the
Outer Continental Shelf, expressed concern that the Executive Summary to the 30-Day Report-
which contained a policy decision by the Secretary of the Interior to recommend a 6-month
moratorium on deepwater exploratory drilling - was worded in a manner that implied that the
experts had also peer reviewed and supported this policy decision.

         All DOl officials interviewed stated that it was not their intention to imply that the
moratorium had been peer reviewed by the experts, and that when the experts ' concern was
brought to their attention, they promptly issued an apology to the experts via conference call,
letter, and personal meeting.

        The OIG reviewed the final email exchange regarding the Executive Summary between
DOl and the White House. In the version that DOl sent to the White House, the moratorium was
discussed on the first page of the Executive Summary, while the peer review language was on
the second page of the Executive Summary, immediately following a summary list of the safety
recommendations contained in the body of the 30-Day Report. The version that the White House
returned to DOl had revised and re-ordered the language in the Executive Summary, placing the
peer review language immediately following the moratorium recommendation. This caused the
distinction between the Secretary' s moratorium recommendation - which had not been peer
reviewed - and the safety recommendations contained in the 30-Day Report - which had been
peer reviewed - to become effectively lost. Although the Executive Summary underwent some
additional minor editing, it was ultimately published on May 27,2010, with the peer review
language immediately following the moratorium recommendation, resulting in the implication
that the moratorium recommendation had been peer reviewed.




                                Office of Inspector General I Wash ington, DC
        The OIG also reviewed the provisions of the Information Quality Act (IQA) relative to
the findings from our investigation to address the question of whether or not the IQA had been
violated.

        The IQA directs the Office of Management and Budget (OMB) to issue Government-
wide guidelines that "provide policy and procedural guidance" designed to ensure the integrity of
"information ... disseminated by Federal agencies." The guidelines define "information" to
mean "any communication or representation of knowledge such as facts or data." The IQA
policies concentrate on "reliable methods and data sources," reproducibility, "transparency about
data and methods," and administrative methods for correcting disseminated information.

        The IQA guidance requires agencies to apply the standards "flexibly, and in a manner
appropriate to the nature and timeliness of the information to be disseminated." IQA guidelines
create a process for "affected persons" to challenge and obtain the correction of "disseminated
information," although the OIG is not aware of the Department's receipt of any such challenge to
the 30-Day Report.

        While the 30-Day Report' s Executive Summary could have been more clearly worded,
the Department has not definitively violated the IQA. For example, the recommendation for a
moratorium is not contained in the safety report itself. Furthermore, the Executive Summary
does not indicate that the peer reviewers approved any of the Report's recommendations. The
Department also appears to have adequately remedied the IQA concerns by communicating
directly with the experts, offering a formal apology, and publicly clarifying the nature of the peer
reVIew.

      If you have any questions about this report, please do not hesitate to contact me at 202-
208-5745.




                                                 2
     Investigative Report
                      Federal Moratorium on Deepwater Drilling


                                     Report Date: November 8, 2010
                                 Date Posted to Web: November 10, 2010




    This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of
Information Act. Supporting documentation for this report may be obtained by sending a written request to the OIG
                                           Freedom of Information Office.
                                          SYNOPSIS

On June 16, 2010, the U.S. Department of the Interior (DOI) Office of Inspector General (OIG)
received a request from Senator David Vitter and Congressman Steve Scalise requesting that the
OIG conduct an investigation into the allegation that DOI senior officials, in an effort to help
justify their decision to impose a 6-month moratorium on deepwater drilling in the Gulf of
Mexico, misrepresented that the moratorium was reviewed and supported by a group of scientists
and industry experts.

We also received an additional request on July 20, 2010, for an investigation into the same
matter by seven members of the U.S. House of Representatives’ Committee on Natural
Resources, including Doc Hastings (R-WA), Doug Lamborn (R-CO), John J. Duncan, Jr. (R-
TN), Bill Cassidy (R-LA), Paul Broun (R-GA), Jason Chaffetz (R-UT), and John Fleming (R-
LA).

The scientists and industry experts expressed concern that the Executive Summary to the 30-Day
Report – which contained a policy decision by the Secretary of the Interior to recommend a 6-
month moratorium on deepwater exploratory drilling – was worded in a manner that implied that
the experts peer reviewed and supported this policy decision, when in fact they had neither
reviewed nor supported such a policy decision and had never been asked to do so.

All DOI officials interviewed stated that it was never their intention to imply the moratorium was
peer reviewed by the experts, but rather rushed editing of the Executive Summary by DOI and
the White House resulted in this implication. After reviewing different drafts of the Executive
Summary that were exchanged between DOI and the White House prior to its final issuance, the
OIG determined that the White House edit of the original DOI draft Executive Summary led to
the implication that the moratorium recommendation had been peer reviewed by the experts.

                                       BACKGROUND

On April 20, 2010, the Deepwater Horizon deepwater drilling rig exploded in the Gulf of Mexico
and caused a massive oil leak in a deepwater well being drilled by BP. In response to the
explosion, the U.S. Department of the Interior (DOI) declared a moratorium on deepwater
drilling, which it extended for 6 months on May 27, 2010, in conjunction with a 30-Day Report
issued by DOI, titled Increased Safety Measures for Energy Development on the Outer
Continental Shelf (Report).

                              DETAILS OF INVESTIGATION

Steve Black is the Counselor to Secretary of the Interior Ken Salazar. Black provided
background information concerning the creation of the 30-Day Report. He said that in late April
2010, President Obama directed DOI Secretary Salazar to prepare a report that would review
current industry practices and standards for deepwater oil drilling and make recommendations as
to how those practices and standards could be improved. Black said that Secretary Salazar placed
him in charge of a team responsible for producing the Report.



                                                1
Black said the Report was prepared with the help of scientists and engineers from DOI and the
Department of Energy. He said that he also collaborated closely with the White House in
preparing the Report, specifically the staff of Carol Browner, Assistant to the President for
Energy and Climate Change.

According to Black, the President asked the National Academy of Sciences (NAS) and the
National Academy of Engineering (NAE), a subdivision of NAS, to conduct a separate, distinct
study to determine the root causes of the accident. When meeting with NAS and NAE, Black
said that he asked them to recommend several experts in offshore drilling to peer review the
recommendations that would be made in the Report he was tasked to prepare. A member of NAE
subsequently provided a list of seven names. Black contacted all seven experts and asked them
for their voluntary assistance, which they agreed to provide. In addition to the seven NAE
experts, Black said that DOI also sought peer reviewers from industry and academia to assist in
the effort to produce the recommendations in the Report, including a professional engineer.

According to Black, a member of NAE facilitated the interactions of the peer reviewers,
meetings with whom were held via teleconference. Black said that the peer reviewers did not
draft any portions of the Report or the recommendations themselves, but rather they reviewed the
recommendations and provided valuable oral and written feedback.

Black said that he held a final conference call with the peer reviewers on Tuesday, May 24,
2010, in which they discussed a draft of the Report, not the final Report. According to Black, the
peer reviewers knew that it was only a draft Report and they knew that they were not being
consulted concerning “policy decisions.” Black then explained that the decision to invoke the
moratorium on current deepwater drilling projects was a policy decision made by Secretary
Salazar and President Obama. Black further stated that there were some discussions about
various parameters of a potential moratorium with the peer reviewers; the moratorium
recommendation, however, as ultimately issued by DOI, was never peer reviewed by the experts.

According to Black, Secretary Salazar sent a Decision Memorandum to President Obama
outlining the findings in the Report and his recommendation for a 6-month moratorium on
current deepwater offshore drilling prior to meeting with the President on the evening of
Wednesday, May 25, 2010. Black said that he was not a part of that meeting, but that after the
meeting Secretary Salazar told him that the President wanted to “sleep on [the idea of the
moratorium]” overnight before making a final decision. Accordingly, Black said that Secretary
Salazar instructed him to draft two different Executive Summaries to the Report; one including
the decision to invoke the moratorium and a second not including the moratorium. Black said
that the next morning Secretary Salazar directed him to begin working closely with a member of
Carol Browner’s staff at the White House to draft the Executive Summary to include the
moratorium.

According to Black, there was “a little disconnect” about the definitions used in the Report and
the final parameters of the moratorium that was ultimately issued (e.g., the Report defined
deepwater drilling as 1,000 feet while the moratorium defined deepwater drilling as 500 feet).

Black said that he initially drafted the Executive Summary, which included, at the behest of

                                                2
Salazar, the mention that the recommendations contained in the Report were peer reviewed by
experts outside of the Government. Black said that Salazar felt it was very important to have the
recommendations undergo the peer review process and he wanted this stressed in the Executive
Summary.

After he drafted the Executive Summary, Black sent it to a member of Browner’s staff at the
White House. According to Black, Browner was concerned that the Executive Summary did not
summarize the recommendations and the associated timetables well enough; therefore,
Browner’s staff drafted some of the text to be included in the Executive Summary themselves.
After several iterations between him and Browner’s staff, Black said that he received a final
version of the Executive Summary from the White House “around 2 or 3am” the morning it was
ultimately finalized. After receiving the final product from the White House, Black said that he
reviewed the final draft; he did not have any issues with the text added by the White House.

A registered Professional Engineer was elected to the National Academy of Engineering in 2005
due to his work on offshore safety; the engineer was asked to participate in a peer review of the
Report’s recommendations. Following issuance of the final Report and the concomitant
Executive Summary, the engineer sent a letter to Louisiana Governor Bobby Jindal and U.S.
Senators Mary Landrieu and David Vitter, expressing concern that his name, along with other
peer reviewers, was used by Secretary Salazar to justify the 6-month deepwater drilling
moratorium. The letter was co-signed by several other peer reviewers.

In the letter he faxed to Landrieu, Vitter, and Jindal, the engineer stated:

       A group of those named in the Secretary of Interior’s Report, “INCREASED
       SAFETY MEASURES FOR ENERGY DEVELOPMENT ON THE OUTER
       CONTINENTAL SHELF” dated May 27, 2010 are concerned that our names
       are connected with the [deepwater drilling] moratorium as proposed in the
       executive summary of the report. There is an implication that we have somehow
       agreed to or “peer reviewed” the main recommendation of that report. This is not
       the case. (emphasis included in original)

The material paragraphs in the Executive Summary that the engineer and the other peer-
reviewers were concerned about are the following:

       The Secretary further recommends an immediate halt to drilling operations on the
       33 permitted wells, not including the relief wells currently being drilled by BP,
       that are currently being drilled using floating rigs in the Gulf of Mexico. Drilling
       operations should cease as soon as safely practicable for a 6-month period.

       The recommendations contained in this report have been peer-reviewed by seven
       experts identified by the National Academy of Engineering. Those experts, who
       volunteered their time and expertise, are identified in Appendix 1. The
       government also consulted with a wide range of experts from government,
       academia and industry.



                                                  3
Black stated that it was no one’s intention to imply that the peer reviewers reviewed the 6-month
moratorium on deepwater drilling policy decision. He explained that the “recommendations” the
Executive Summary was referring to were the formal recommendations contained in the body of
the Report, not the moratorium. When asked if an objective reader of the Executive Summary
might conclude that the peer reviewers reviewed the moratorium recommendation, due to the
organization of the text, Black stated again that it was not the intention of DOI or the White
House to imply this was the case. He explained that due to the rush to complete the Report and
the Executive Summary, time did not allow for careful editing and review of the Executive
Summary. He then said that the Report itself and the draft Executive Summary did undergo the
surnaming process, but the final Executive Summary did not.

Following release of the Report and the Executive Summary, Black said he received a telephone
call from the engineer. He said that the engineer told him the peer reviewers were concerned that
the Executive Summary misrepresented that the peer reviewers had reviewed and supported the
moratorium recommendation made by Secretary Salazar to the President. The engineer also told
him at that time that the peer reviewers were in the process of drafting a letter to various
members of Congress explaining their concerns. Black said that until the engineer told him about
these concerns, Black had never considered the possibility that an objective reader of the
Executive Summary may believe that the peer reviewers had reviewed the 6-month moratorium
policy decision.

Black said that he informed the Secretary about the peer reviewers’ concerns immediately after
speaking with the engineer, even though the Secretary was very busy at that time with travel due
to the oil spill crisis in the Gulf of Mexico. During this time frame, according to Black, the letter
drafted by the peer reviewers had been sent to Congressional members and was subsequently
released to the media.

Black stated that Secretary Salazar directed him to draft and issue a formal letter to the
concerned peer reviewers apologizing for the misunderstanding and stating that the peer
reviewers did not in fact peer review and support the moratorium ultimately decided upon by
DOI and the White House. Specifically, the letter issued by DOI to the concerned peer reviewers
on June 3, 2010, stated:

       By listing you as a member of the NAE panel that peer-reviewed the 22 safety
       recommendations contained in the Report, we did not mean to imply that you also
       agreed with the decision to impose a moratorium on all new deepwater drilling.
       We acknowledge that you were not asked to review or comment on the proposed
       moratorium. The recommendation and decision were based on the Report’s safety
       recommendations, in particular the need for new blowout preventer and other
       safety equipment on subsea BOP stacks used on floating drilling rigs and the need
       for better wild-well intervention techniques in the event of future emergencies
       like the BP oil spill, particularly in deepwater. We regret any misunderstanding or
       confusion related to the inclusion of the recommendation to impose a 6-month
       moratorium on all new deepwater wells in the executive summary of the final
       report.



                                                  4
Black said that sometime in mid-June, Secretary Salazar held a teleconference call with the
concerned peer reviewers and apologized for any misunderstanding resulting from the text of the
Executive Summary. Secretary Salazar then had a personal meeting with the concerned peer
reviewers in Washington, DC, the following week and apologized once again to them for the
misunderstanding. Black said that he was not present at this personal meeting between Secretary
Salazar and the peer reviewers, although a member of his staff was present during both the
conference call and personal meeting Secretary Salazar had with the concerned peer reviewers.

According to Black’s staff member, after Secretary Salazar was tasked by the President to
prepare the Report, he assisted Black in preparing the Report by helping collect and compile the
background information related to deepwater offshore drilling. Black’s staff member said that he
did not assist in drafting any of the recommendations in the Report because he is not an engineer,
and they were too technical.

Black’s staff member stated that he participated in the conference calls with the peer reviewers
when they were asked to peer review the recommendations, including the final conference call
on Tuesday, May 24, 2010. He said that he emailed the draft Report, including the draft
recommendations to the peer reviewers that morning, and that was the first time the peer
reviewers had seen the entire Report. He echoed Black by stating that the peer reviewers
understood that the Report was still only a draft and there was no discussion about the 6-month
moratorium.

Black’s staff member said that he was tasked to assist Black in editing the Executive Summary to
the Report that discussed the moratorium. According to him, he and Black eventually sent a draft
of the Executive Summary to the White House for edits, specifically to a member of Browner’s
staff. He confirmed Black’s statement that the White House made several edits and eventually
returned the Executive Summary back to DOI sometime “after 3 am” on the morning of May 27,
2010.

Black’s staff member noted that he did review the final Executive Summary after it was returned
by the White House, but it never occurred to him that, based on the final text, an objective reader
may believe that the peer reviewers had reviewed and supported the 6-month moratorium rather
than only reviewing the formal recommendations contained in the body of the Report. He said
that he first learned of the peer reviewers’ concerns, after he returned from a short vacation,
when he read the letter the NAE engineer sent to Governor Jindal and Senators Landrieu and
Vitter. Upon reading the letter, Black’s staff member said that he was “jarred” by the tone of the
letter because he believed that DOI had formed an excellent relationship with the peer reviewers
during the Report writing process.

Black’s staff member said that he never participated in any discussion with other DOI staff or
White House staff about trying to draft the Executive Summary in a manner that would imply
that the peer reviewers had reviewed the 6-month moratorium.

The NAE engineer acknowledged that after he sent the letter to the Governor and Senators, DOI
issued formal letters to each of the peer reviewers of the Report apologizing for any
misunderstanding or confusion. He also confirmed that Secretary Salazar conducted a

                                                 5
teleconference with those who reviewed the Report in order to apologize for any
misunderstanding surrounding the representations made in the Executive Summary for the
Report. According to the NAE engineer, Secretary Salazar stated that the Executive Summary
was not meant to imply that the decision to invoke a 6-month moratorium on deepwater drilling
was peer reviewed by the engineer and others, but rather the moratorium was an independent
decision of Secretary Salazar and the White House.

Based upon the teleconference that Secretary Salazar conducted regarding the matter, along with
the letters DOI issued to the peer reviewers, the NAE engineer said that he has accepted
Secretary Salazar’s explanation that the language in the Executive Summary was a mistake
rather than an intentional attempt to use the peer-reviewers’ names to justify a political decision.
As a result, he said that he considers the matter a “non-issue” and he is focusing on trying to
assist DOI in instituting a moratorium that is supported by sound science and engineering, rather
than a blanket moratorium.

A principal for Petroskills, a petroleum training alliance, and was also a peer reviewer of the
Report. He co-signed the letter that the NAE engineer sent to Louisiana Governor Jindal and
Senators Landrieu and Vitter, expressing concern that their names were being used by Secretary
Salazar to justify a deepwater drilling moratorium.

The Petroskills principal, similar to the NAE engineer, confirmed that he received the formal
letter from DOI apologizing for the misunderstanding and that Secretary Salazar held both a
conference call and personal meeting to do the same. Based upon these actions by Secretary
Salazar, he said that he also believed that the misrepresentation was an editing “mistake” and not
intentional. He said, however, that he was still concerned about the “process” the Government
was following in pursuing the moratorium. He explained that he believes DOI should not make
such a blanket decision without first seeking expert peer review, but rather DOI should seek such
peer review and then make a moratorium decision based on that review.

Another peer reviewer, from the Center for Catastrophic Risk Management at the University of
California, stated that he first heard of the moratorium recommended by DOI in the Executive
Summary of the May 27, 2010 Report when Senator Landrieu asked him about it on May 29,
2010. He said the proposed moratorium had not been discussed with the peer reviewers prior to
issuance of the Report.

Similar to both the NAE engineer and the Petroskills principal, this peer reviewer confirmed that
DOI issued a formal letter of apology and that Secretary Salazar held a conference call and
personal meeting with the concerned peer reviewers to tell them it was never the intention of
DOI and the White House to imply that the peer reviewers reviewed and approved the
moratorium. Following these actions by Secretary Salazar, he also said that he believes that the
misrepresentation was a “mistake” and not intentional because he always tries to believe people
mean well and tell the truth, unless proven otherwise. He explained that he simply does not know
whether it was a mistake or intentional, but he was not interested in speculating one way or the
other because he was focused on trying to persuade DOI to institute a moratorium that is
supported by sound science and engineering, rather than a blanket moratorium.



                                                 6
This peer reviewer also expressed concern that DOI is proposing the moratorium without any
input from expert peer reviewers. He questioned why DOI would not peer review such an
important, far-reaching decision in light of the fact that DOI had all of the safety
recommendations listed in the Report undergo peer review.

S. Elizabeth Birnbaum is the former Director of the Minerals Management Service (MMS).
Birnbaum said that she did not personally work on preparing the Executive Summary containing
the moratorium recommendation. According to Birnbaum, Black was the principal person
responsible for preparing the 30-Day Report on deepwater drilling safety and that her
participation was limited to surnaming the Report.

Birnbaum said that there were general discussions about extending a moratorium on deepwater
drilling and its associated parameters, although she had no knowledge that Secretary Salazar
planned on recommending the moratorium in the Executive Summary of the 30-Day Report to
the President. She stated that she learned of the recommendation only when MMS Deputy
Director Mary Katherine Ishee told her about it as she delivered the Report and Executive
Summary to Birnbaum for surnaming. According to Birnbaum, she asked Ishee why the
moratorium recommendation had been inserted in the Executive Summary; Ishee told her that
Black had inserted the moratorium recommendation based upon an agreement with the White
House to do so.

Birnbaum said that she has no knowledge whether the implication that the moratorium had been
peer reviewed was intentional or not. Birnbaum opined that the implication was probably a
product of editing and a review of the email trail related to the creation of the Executive
Summary would be the best way to identify who may have edited the document that resulted in
the implication.

Birnbaum also stated that she does not believe that Secretary Salazar’s request for her resignation
was in any way related to the issuance of the 6-month moratorium on deepwater drilling,
regardless of the fact that both events occurred on May 27, 2010.

The OIG reviewed the final email exchanges regarding the Executive Summary between the DOI
and the White House. The Department has claimed privilege for these documents.

The language in the Executive Summary to which the experts objected was this:

       The recommendations contained in this report have been peer-reviewed by seven experts
       identified by the National Academy of Engineering. Those experts, who volunteered their
       time and expertise, are identified in Appendix 1. The Department also consulted with a
       wide range of experts from government, academia and industry.

A review of the emails that Black sent to the White House at 11:38 p.m. on May 26, 2010,
reflects that in DOI’s draft of the Executive Summary the moratorium was discussed on the first
page of the Executive Summary, while the peer review language was on the second page of the
Executive Summary, immediately following a summary list of the safety recommendations
contained in the body of the 30-Day Report, which had been peer reviewed.

                                                7
At 2:13 a.m. on May 27, 2010, Browner’s staff member sent an email back to Black that
contained two edited versions of the Executive Summary. Both versions sent by the staff
member contained significant edits to DOI’s draft Executive Summary but were very similar to
each other. Both versions, however, revised and re-ordered the Executive Summary, placing the
peer review language immediately following the moratorium recommendation causing the
distinction between the Secretary’s moratorium recommendation – which had not been peer
reviewed – and the recommendations contained in the 30-Day Report – which had been peer
reviewed – to become effectively lost. Although the Executive Summary underwent some
additional minor editing, it was ultimately published on May 27, 2010, with the peer review
language immediately following the moratorium recommendation.




                                              8
